LAw

OFFICES

GREGORY H. GUILLOT, P.C.
GREGORY H. GUILLOT
ADMITIED IN TEXAS,

D.C.

AND L OUI SIANA

May 13,2021

ScottS. Harris, Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543-0002

Re:

No. 20-1448, Corbello v. Valli, et al.

Dear Mr. Harris:
I represent the Petitioner in the above-captioned case. On May 12, 2012, the Respondents
moved for a 25-day extension of time for their brief in opposition, up to and including, June 11,
2021.
Petitioner respectfully opposes the extension. Granting an extension for the requested period
of time would defer the Court's consideration of this petition until after the summer recess, thereby
resulting in more than three months of unnecessary delay for Petitioner.
As previously explained to Respondents' counsel, Petitioner would not oppose a shorter
extension that would still result in the petition being considered before the Court's summer recess.
For example, if Respondents receive a 7-day extension, up to and including May 24, 2021, the
petition would be distributed on June 8, 2021, and considered before the summer recess at the
Court's conference of June 24, 2021.
Petitioner empathizes with legitimate COVID-19 concerns. But the facts are that counsel in
numerous firms throughout the country have become accustomed to working from home over the
past year, and doing so at this point in the pandemic creates no special impediments to the conduct
of research, or the preparation of a brief, which, standing alone, warrant deferring action on the
petition. Moreover, the vast majority ofNew York residents within counsel's relevant demographic
groups have now been fully vaccinated, and are capable of retrieving items from their mostly empty
offices if needed.
Respectfully submitted,.

ofJ7/t:~
Gregory H. Guillot
Counsel for Petitioner

cc:

Counsel for Respondents (by email)
100 CRESCENT CouRT • 7TH FLOOR • DALLAS, TExAs 75201
TELEPHONE: (972) 77 4-4560 • FACSIMILE: (972) 301-2110 • E-MAIL: gregory@guillot-law.com • INTERNET: http://www.ggmark.com

